BECKER GALLAG HER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply to Brief in Opposition in 19-1302,
David Shinn v. George Russell Kayer, were sent via
Next Day Service to the U.S. Supreme Court, and email to the following parties listed below, this 2nd day
of September, 2020:
Jean-Claud e Andre
Sidley Austin LLP
555 West Fifth Street
Los Angeles, CA 90013
(213) 896-6000
jcandre@sid ley.com
Counsel for Respondent
Lacey Stover Gard
Chief Counsel
Counsel of Record
Office of the Arizona Attorney General
400 W. Congress, Bldg. S-215
Tucson, AZ 85701
(602) 628-6520
lacey.gard@ azag.gov
Counsel for Petitioner

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 2, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Pubic, State of Ohio
My Commission Expires
February 14, 2023

